U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Martin G. Lewis v. Dewayne Hendrix, Warden,
S.Ct. No. 20-7863

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 22,
2021, and placed on the docket on April 28, 2021. The government’s response is due on May
28, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 28, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7863
LEWIS, MARTIN G.
DEWAYNE HENDRIX, WARDEN

STEPHEN REESE SADY
FEDERAL PUBLIC DEFENDER
101 SW MAIN STREET
SUITE 1700
PORTLAND, OR 97204

